OFFICE OF THE ATTORNEY GENERAL

DEPARTMENT OF LEGAL AFFAIRS
THE CAPITOL, PL-01
TALLAHASSEE, FLORIDA 32399-1050

 

Ashley Moody
Attorney General
State of Florida

 

August 18,2020

The Honorable Scott S. Harris,
Clerk of Court

Supreme Court of the United States
One First Street N.E.

Washington D.C. 20543-0001

VIA ELECTRONIC DELIVERY

Re: Johnny Mack Sketo Calhoun v. Florida,
Case No. 20-5086— Capital Case

Dear Mr. Harris:

Respondent, the State of Florida, requests a one day extension of time to file its
Brief in Opposition to the petition. Sup. Ct. R. 30.4. Due to an inadvertent calendar
error, the brief was one day late. Opposing counsel, Assistant Capital Collateral
Regional Counsel - North, Stacy Biggart, has been contacted via email and has no
objection to this extension. Therefore, Respondent request until Tuesday, August 18,
2020, to file the brief in opposition.

Sincerely,

CAG M. lll

Associate Deputy Attorney General
Counsel of

OFFICE OF Tae ATTORNEY GENERAL
CAPITAL APPEALS

PL-01, THE CAPITOL

TALLAHASSEE, FL 32399-1050
(850)414-3300
carolyn.snurkowski@myfloridalegal.com

Copies mailed to Assistant Capital Collateral Regional Counsel - North, Stacy Biggart, 1004 DeSoto
Park Drive, Tallahassee, FL 32801 this 18th of August, 2020.
